<html>
<title> - WHAT HAPPENED TO GPRA? A RETROSPECTIVE LOOK AT GOVERNMENT PERFORMANCE AND RESULTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 WHAT HAPPENED TO GPRA? A RETROSPECTIVE LOOK AT GOVERNMENT PERFORMANCE 
                              AND RESULTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2003

                               __________

                           Serial No. 108-75

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform






                      U.S. GOVERNMENT PRINTING OFFICE

90-481                        WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM



                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2003...............................     1
Statement of:
    Armey, Richard, former House Majority Leader; Clay Johnson, 
      Deputy Director for Management, Office of Management and 
      Budget; David Walker, Comptroller General, General 
      Accounting Office; and Patricia McGinnis, president and 
      chief executive officer, Council for Excellence in 
      Government.................................................     6
Letters, statements, etc., submitted for the record by:
    Armey, Richard, former House Majority Leader, prepared 
      statement of...............................................     9
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Johnson, Clay, Deputy Director for Management, Office of 
      Management and Budget, prepared statement of...............    14
    McGinnis, Patricia, president and chief executive officer, 
      Council for Excellence in Government, prepared statement of    51
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........    68
    Walker, David, Comptroller General, General Accounting 
      Office, prepared statement of..............................    29
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    80


 WHAT HAPPENED TO GPRA? A RETROSPECTIVE LOOK AT GOVERNMENT PERFORMANCE 
                              AND RESULTS

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis and Platts.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Ellen 
Brown, legislative director and senior policy counsel; Robert 
Borden, counsel/parliamentarian; David Marin, director of 
communications; Teresa Austin, chief clerk; Brien Beattie, 
deputy clerk; Shalley Kim, legislative assistant; Phil Barnett, 
chief counsel; Karen Lightfoot, communications director/senior 
policy advisor; Michelle Ash, counsel; David McMillen and Mark 
Stephenson, minority professional staff members; and Earley 
Green, minority chief clerk.
    Chairman Tom Davis. The committee will come to order.
    I want to thank everyone for coming this morning. The 
government is closed down in Washington, but the Government 
Reform Committee continues to meet here in the safety of the 
Rayburn Building, which has stood up through rain, snow, sleet, 
and hurricanes for over 40 years.
    The purpose of today's hearing is to assess the overall 
effectiveness of the Government Performance and Results Act of 
1993 in shifting the focus of government from process to 
results. The purpose of the Results Act, which was enacted into 
law 10 years ago, was to promote greater efficiency, 
effectiveness, and accountability in Federal operations and 
spending by establishing a new framework for performance 
management and budgeting in Federal agencies.
    The Results Act was one of a number of laws enacted in the 
early 1990's whose purpose was to improve government efficiency 
and accountability. The Chief Financial Officers Act of 1990, 
the Government Performance and Results Act of 1993, the 
Government Management Reform Act of 1994, the Federal 
Acquisition Streamlining Act of 1994, the Federal Financial 
Management Improvement Act of 1996, and the Clinger-Cohen Act 
of 1996 were all good government initiatives passed by the 
Congress with the purpose of improving management practices in 
the Federal Government.
    Today we will focus on the Results Act. In future hearings, 
I intend to revisit other management statutes to determine if 
Congress's vision is being met.
    Section 2(b) of the Results Act clearly lays out Congress's 
purposes in enacting the legislation, and I would like to read 
some of these purposes to you and then spend some time today 
assessing whether these purposes have been realized.
    No. 1, improve the confidence of the American people in the 
capability of the Federal Government by systematically holding 
Federal agencies accountable for achieving program results; No. 
2, improving Federal program effectiveness and public 
accountability by promoting a new focus on results; No. 3, 
improving congressional decisionmaking by providing more 
objective information on achieving statutory objectives; and 
No. 4, improving internal management of the Federal Government.
    If some or all of the act's goals are not being met, I 
encourage the witnesses to provide the committee with their 
comments and suggestions as to how we can accomplish these 
goals.
    Ultimately, I am convinced that the underlying objective of 
the Results Act--focusing the government on accomplishing 
results rather than concentrating its time and attention on 
process--is not something that can be legislated. Instead, 
there must be a longstanding commitment from the top levels of 
the executive branch, a commitment that lasts long enough that 
it begins to soak down through the bureaucracy and into 
everyday operations of government. After all, government is the 
only vessel that leaks from the top.
    Along those lines, I believe that the President's 
Management Agenda, which has put a public face on these 
somewhat abstract management issues, has been a major step 
forward in focusing the government's attention on improving 
management and accountability. I look forward to hearing the 
testimony today of Clay Johnson, the administration's point 
person for governmentwide management issues, to hear his 
assessment of the state of performance management and 
accountability in the Federal Government.
    In particular, I look forward to hearing more about the 
administration's PART Initiative, or Program Assessment Rating 
Tool. The PART was used this year to evaluate whether specific 
Federal programs were accomplishing the goals they set out to 
accomplish, with the intention of setting funding levels based 
on whether or not the programs are accomplishing their goals. I 
would like to pursue this notion of tying budget decisions 
directly to program performance with the witnesses. While I 
don't believe that you can legislate accountability in 
government, I do think there is some merit in looking at ways 
to legislatively tie performance criteria into the Federal 
budget process.
    I also want to welcome our former majority leader Dick 
Armey. Perhaps more than any other Member of Congress Mr. 
Armey's commitment to improving the management of the Federal 
Government during his tenure as majority leader is well known, 
and I look forward to getting his take on what kind of progress 
he believes has been made over the past decade.
    We have gathered together an outstanding group of witnesses 
before us today who will provide members of this committee with 
a broad range of perspectives on the success and failures of 
the Results Act.
    Before us today are Richard Armey--Dick Armey, our former 
majority leader in the House, who was a Member from Texas for 
many years; Clay Johnson, another Texan, but the Deputy 
Director for Management at OMB; David Walker, who resides in my 
district down in the Lorton area, the Comptroller General of 
the GAO; and we are still looking for Patricia McGinnis of the 
Council for Excellence in Government. I know she didn't have a 
traffic problem coming in today with no cars on the road, but 
given the fact that government is closed and the like, I don't 
know if she will make it or not.
    I look forward to all of your testimony, and I welcome all 
the witnesses to today's hearing and look forward to your 
testimony. Members will have 5 legislative days to submit 
opening statements for the record, and I ask unanimous consent. 
Hearing no objections, it is so ordered.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 90481.001
    
    [GRAPHIC] [TIFF OMITTED] 90481.002
    
    Chairman Tom Davis. It is the policy of the committee that 
all witnesses be sworn before they testify. So if you would 
rise with me and raise your hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    I know all of you have been up here enough to know our 
general rules. We will relax them a little bit today, given the 
fact that we don't have a crowded dais of Members.
    But what I would like to do is take about 5 minutes and 
talk--your testimony that is written out will be in the record 
as submitted--and take 5 minutes. You know how the lights read 
here. Try to take about 5 minutes to summarize your thoughts on 
this, and then we will go right into questions.
    Mr. Armey, we will start with you as the former majority 
leader of this body; and it's great to have you back.

STATEMENTS OF RICHARD ARMEY, FORMER HOUSE MAJORITY LEADER; CLAY 
 JOHNSON, DEPUTY DIRECTOR FOR MANAGEMENT, OFFICE OF MANAGEMENT 
    AND BUDGET; DAVID WALKER, COMPTROLLER GENERAL, GENERAL 
 ACCOUNTING OFFICE; AND PATRICIA MCGINNIS, PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, COUNCIL FOR EXCELLENCE IN GOVERNMENT

    Mr. Armey. Thank you, Mr. Chairman.
    Let me just say, first of all, it is a pleasure for me to 
be back on the Hill and in the House and in this committee.
    I might mention, Mr. Chairman, in 1984, when I was elected, 
between that time of my election and the time I was actually 
sworn in I was given the opportunity to elect which committees 
on which I would like to serve, and this was a committee of 
choice for me. My good fortune was that I was selected to serve 
on this committee, which I thought was going to be a delightful 
experience until I came to Washington and met the chairman, Mr. 
Brooks, who I remember with grand fondness.
    Jack Brooks was a tough fellow but a decent guy, and we 
developed a good relationship over the years. He used the 
committee oftentimes to discipline the various agencies of this 
government and in a manner not always toward the objective of 
improving their performance with respect to the enactment of a 
law but perhaps with respect to the partisan difference between 
the Democrat majority in the Congress at that time and the 
Republican President. So that we saw all those years ago a 
different role for the question relative to its oversight 
responsibilities, a different set of philosophy.
    That changed through the time--through the years, and I 
think it's important for us to note that the Government 
Performance and Results Act of 1993 was passed into law by a 
Democrat-controlled Congress at a time when a Democrat was in 
the White House. So clearly there was no purpose of Congress at 
that time to enact legislation that would allow them to 
exercise a political leverage over the administration. I think 
we can all recognize the intent of Congress at that time was to 
give this committee in particular but the Congress in general a 
set of tools and a set of standards by which they could 
encourage each and every agency of this government to implement 
the law of the land and to do so in a manner that reflects the 
will of Congress as the law was written. This is the effort 
that we have taken--this committee has taken.
    Let me also mention, if I might digress for a quick moment, 
I do have a formal statement, and I would like to have it in 
the record.
    Chairman Tom Davis. It's all in the record. It's already 
done.
    Mr. Armey. To my good fortune, in 1994, the majority status 
of the Congress changed, and I had the privilege of becoming 
majority leader, and within that context of my duties as 
majority leader I accepted the role of coordinating oversight 
activities. It was a role that I took with a great deal of 
enthusiasm. I had said then and I will say now that Congress 
can every year do more to affect the well-being of its children 
and their future with effective oversight than they can by 
passing new legislation.
    Oversight is a tough business. It is a business that is 
often met with resistance, but it is the necessary business of 
taking that legislation and making it work for the people 
through the agencies that are charged with the responsibility 
of the enforcement.
    I think GPRA, the Government Performance and Results Act, 
focused on a cultural problem that affected many of our 
agencies where they had an emphasis on process. One must 
understand that when legislation is written, it is oftentimes 
written in a manner that is lax enough to give the agencies a 
great latitude in finding their own direction; and, to some 
extent, the agency will act as if it were water and take the 
path of least resistance. That's not necessarily oftentimes 
what the law asks; it may ask us to do what is in fact a more 
difficult job with a greater degree of rigor, discipline and 
looking for different results.
    So to pass a piece of legislation that gives Congress a 
sense of oversight authority and duty to--what should I say--
encourage the agencies to focus on results, to measure their 
performance by results rather than to stay enmeshed in the 
comforts of a focus on process is an important piece of 
legislation. I have to say, from my experience, the U.S. House 
of Representatives since 1993 has taken GPRA seriously, this 
committee in particular.
    I would like to take a moment to pay my respects to former 
Congressman Steve Horn, who served on this committee and I 
think may have set a standard in diligence and commitment in 
his personal subcommittee chairmanship with respect to his 
pursuit of this committee. I know from my many conversations 
with Steve and my own experience, if I may, that the GAO has 
always been an agency of this government that's understood 
GPRA, worked hard and provided good information and support to 
the efforts of the House.
    After 10 years, we want to assess what progress is made. 
Ten years is not a great deal of time to effect a change in 
culture, and I think within that context I should say I believe 
we are making progress. Agencies who have many times been 
comfortable consoling themselves by measuring their past years' 
activities by process notations are learning that they can no 
longer do that and must juxtapose their activities against the 
results that were designed and hoped for in the legislation. 
The reports are painfully made and often resisted but this 
committee I believe, if it stays committed to the full and 
comprehensive enactment of GPRA as I believe it has, can do a 
great deal to cause each and every agency of the government to 
exercise their responsibility to enact the enforcement of the 
law as enacted by Congress in a manner that gets better results 
for the American people.
    So let me just summarize by saying I'm pleased we passed 
the law. I'm pleased with the efforts that have been made, 
particularly in the House of Representatives and even more 
particularly in this committee supported by the GAO. I'm 
encouraged by the responsiveness of agencies. You are actually 
asking agencies to change their behavior in a manner that takes 
them from less comfortable--or from more comfortable to more 
rigorous patterns of activity and success measurement.
    The agencies are doing exactly what one would predict: They 
are dragging their feet; they are hoping it will go away. But, 
in the end, with constant encouragement, they will learn these 
new skill sets and we will serve our Nation's children better, 
as I said, through good oversight than we could have done by 
making a new law.
    So thank you for letting me be here.
    Chairman Tom Davis. Mr. Leader, thank you very much for 
being here. It's great to have you. We'll have a lively 
discussion in the question and answer period. Thank you.
    [The prepared statement of Mr. Armey follows:]
    [GRAPHIC] [TIFF OMITTED] 90481.003
    
    [GRAPHIC] [TIFF OMITTED] 90481.004
    
    [GRAPHIC] [TIFF OMITTED] 90481.005
    
    Chairman Tom Davis. Mr. Johnson, thank you for being here.
    Mr. Johnson. Thank you.
    Mr. Chairman, the 1993 Results Act introduced the concept 
of performance management to government. This important law 
required strategic and performance planning. It required 
agencies to set annual goals and then report annually on the 
extent to which they were achieving their goals. The promise of 
the Results Act was a government that managed for results. That 
was the promise. I think, though, that the reality of the 
Results Act today is a government that rarely uses performance 
information to manage programs or make decisions on how to 
improve performance.
    In response to this state of affairs, agencies and OMB 
together have set out to ask how individual programs--more 
targeted than asking a question about overall agencies--but 
asking how individual programs are performing. Are they 
effective? Are they well managed? If not, how might we work 
with Congress to improve program performance?
    The administration created the Program Assessment Rating 
Tool [PART], which is a consistent, objective and transparent 
method of evaluating a program's purpose and design, its 
management and its results. It assesses the extent to which an 
agency is managing for results and maximizing the program's 
performance, which are key requirements of the Results Act.
    We're analyzing 20 percent of the government's programs 
each year. We will ``PART'' these programs--at this rate, we 
will ``PART''--we have turned this into a verb--we will 
``PART'' all the programs in the Federal Government in a 5-year 
period of time. We thought it wise to allow this much time to 
properly assess and reassess all the Federal programs and, 
maybe more importantly, to allow this much time to change the 
way the executive and congressional branches address the issue 
of performance.
    As Congressman Armey talked about, we have to change the 
culture of this place. I believe that 5 years from now the 
Federal Government will be managing for results; we can make 
this happen. The executive branch leadership will be routinely 
asking whether the programs it administers are effective and 
efficient and doing what they are intended to do. If they 
aren't, the executive branch will be looking for ways to 
improve, working closely with Congress to do so. The executive 
branch will also be able to assess the programs administered 
throughout the government, find out which ones work best, and 
share and supply best practices among them. We will also have a 
better picture of overall agency performance based on the sum 
of PART evaluations.
    I also believe that Congress will use performance 
information--program performance information as part of their 
oversight considerations, insisting that program performance 
improve throughout government. I expect agencies will be asked 
why the programs haven't improved. Congress will be working 
with the executive branch to develop and implement remedies to 
address poor program performance. I expect this committee in 
particular will be looking across government at what's working 
and what's not, and appropriators will be focusing resources on 
what is working.
    We are all working to earn the trust of the American people 
every day. One way to do this is to focus constantly on whether 
we are doing what we set out to do. We are going to have to 
work at this. Managing for results is still a new way of 
thinking for the Federal Government. We are working with 
Congress and agencies as we speak to determine the best way to 
show what performance we achieved for the money we spent last 
year and the performance we can expect for the money we are 
requesting for next year. This is what managing for results is 
all about. It is not easy, but it is doable. And because we are 
managing in times of continued budgetary restraint, it is 
necessary. This will happen; we will bring about this historic 
change in government management together, the executive branch 
and Congress, and in doing so I believe realize the full 
promise of the Results Act.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] 90481.006
    
    [GRAPHIC] [TIFF OMITTED] 90481.007
    
    [GRAPHIC] [TIFF OMITTED] 90481.008
    
    [GRAPHIC] [TIFF OMITTED] 90481.009
    
    [GRAPHIC] [TIFF OMITTED] 90481.010
    
    [GRAPHIC] [TIFF OMITTED] 90481.011
    
    [GRAPHIC] [TIFF OMITTED] 90481.012
    
    [GRAPHIC] [TIFF OMITTED] 90481.013
    
    [GRAPHIC] [TIFF OMITTED] 90481.014
    
    [GRAPHIC] [TIFF OMITTED] 90481.015
    
    [GRAPHIC] [TIFF OMITTED] 90481.016
    
    [GRAPHIC] [TIFF OMITTED] 90481.017
    
    [GRAPHIC] [TIFF OMITTED] 90481.018
    
    Chairman Tom Davis. Mr. Walker, thank you for being here.
    Mr. Walker. Thank you, Mr. Chairman; and thank you very 
much for continuing to hold this hearing today. I think this is 
a very important topic and appreciate your willingness to 
continue to hold it even though others aren't here today.
    Also, let me say at the outset it is a privilege to be here 
with former majority leader Dick Armey; he was the champion of 
GPRA, there is absolutely no question about it. And I totally 
acknowledge as well that Steve Horn--former Congressman Steve 
Horn was the champion of oversight with regard to this area.
    I'm also pleased to be here with Clay Johnson and with Pat 
McGinnis. Clay clearly has responsibility for the President's 
Management Agenda as well as the PART, and this administration 
is taking GPRA very seriously and real progress is being made 
and I would like to commend them for that. But, if I can, Mr. 
Chairman, since you put the entire statement in the record, a 
few highlights.
    As has been noted, this is the 10-year anniversary. It is 
also, interestingly, the 20th anniversary of the IG Act and the 
25th anniversary of the last Civil Service Reform Act; and 
those are two areas separate and distinct today that hopefully 
will get some attention during this Congress.
    I think it is important to note that GPRA was about 
strategic planning but also annual performance planning and 
reporting. Candidly, initially people didn't take it very 
seriously in the executive branch. Initially, it was an annual 
paperwork exercise that people went through, and it did not 
have very outcome-based measures for performance. But that has 
changed considerably over the last several years, not only 
because of congressional interest, in particular this 
committee, in particular Steve Horn's subcommittee, but also 
there are other good government groups, such as the Council of 
Excellence in Government.
    Of course, GAO has been and will remain on the case. But, 
furthermore, they have the Association of Government 
Accountants, who give annual awards for excellence in 
reporting, and the Mercatus Center, which is part of George 
Mason University, ranks performance and accountability reports 
every year and what kind of progress that's being made. So, 
based upon our work and based upon the work of these other 
entities, I think it's clear to say that progress is being 
made, that the executive branch is taking this seriously.
    I might note that probably two of the three top agencies in 
this area are the Transportation Department, the Social 
Security Administration, the Labor Department, the executive 
branch. Three of the laggards in this area, based upon our work 
and the work of others, the Defense Department, Health and 
Human Services and the Energy Department.
    I might also say that GAO, as you know, Mr. Chairman, is 
leading by example in many areas. I might note that we were 
ranked No. 1 in the Federal Government by the Mercatus Center. 
We received an ``excellent'' from AGA. But, more importantly, 
it's not just your reporting and your planning, it's what 
results you actually achieve; and I think we have to focus on 
that. It's not just the paperwork. It's not just the processes. 
It's what results are actually being achieved.
    I think it's important that more steps be taken to link 
resources to results, to reward people who are doing a good job 
and to have consequences for people who are not. The PART is a 
positive step in this regard. I think it's important to link 
institutional performance measures with individual performance 
measurement reward systems. In most Federal agencies, that has 
not been done. It is important to have a governmentwide 
performance plan, which we don't have right now. It's also 
important to focus on the horizontal dimension of government, 
rather than just the vertical dimension, because there are many 
programs. Policies are executed by many different departments 
and agencies and we need to be able to minimize duplication, 
overlap, inconsistency, if you will.
    I note in my testimony the need for a set of key national 
indicators that could help frame the overall governmentwide 
performance plan and cascade down to departments and agencies, 
the need to consider chief operating officers or chief 
management officials and selected departments and agencies to 
really make this come alive and to deal with the transformation 
effort that majority leader Armey talked about.
    And candidly, Mr. Chairman, I would say that the executive 
branch right now in the Steve Horn--who gave grades. In respect 
for him, I would say the executive branch is a B or better in 
taking this seriously and making progress. They are good. There 
are differences. Some are better than others, but they are 
taking it seriously.
    Candidly, other than this committee, Mr. Chairman, the 
Congress has a long way to go. I think one of the things that 
has to happen is Congress has to use this information more for 
oversight, for authorization, and for appropriations. We see 
very little evidence--other than this committee, we see very 
little evidence that Congress is using this information in a 
meaningful way. People that are doing a good job should be 
rewarded. People that aren't should be held accountable. If 
they can't improve after a period of time, there have to be 
consequences; and, to date, frankly, there haven't been. I 
mean, some of the agencies that are doing the poorest in this 
area get the most resources and the most flexibility, and 
something is wrong with that.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you. Thank you very much. It's 
going to generate some questions. I appreciate that.
    [The prepared statement of Mr. Walker follows:]
    [GRAPHIC] [TIFF OMITTED] 90481.019
    
    [GRAPHIC] [TIFF OMITTED] 90481.020
    
    [GRAPHIC] [TIFF OMITTED] 90481.021
    
    [GRAPHIC] [TIFF OMITTED] 90481.022
    
    [GRAPHIC] [TIFF OMITTED] 90481.023
    
    [GRAPHIC] [TIFF OMITTED] 90481.024
    
    [GRAPHIC] [TIFF OMITTED] 90481.025
    
    [GRAPHIC] [TIFF OMITTED] 90481.026
    
    [GRAPHIC] [TIFF OMITTED] 90481.027
    
    [GRAPHIC] [TIFF OMITTED] 90481.028
    
    [GRAPHIC] [TIFF OMITTED] 90481.029
    
    [GRAPHIC] [TIFF OMITTED] 90481.030
    
    [GRAPHIC] [TIFF OMITTED] 90481.031
    
    [GRAPHIC] [TIFF OMITTED] 90481.032
    
    [GRAPHIC] [TIFF OMITTED] 90481.033
    
    [GRAPHIC] [TIFF OMITTED] 90481.034
    
    [GRAPHIC] [TIFF OMITTED] 90481.035
    
    [GRAPHIC] [TIFF OMITTED] 90481.036
    
    [GRAPHIC] [TIFF OMITTED] 90481.037
    
    Chairman Tom Davis. Pat McGinnis is here. Thanks. You made 
it through the heavy traffic. I'm just kidding.
    Ms. McGinnis. Thank you. Yeah, the heavy traffic.
    Chairman Tom Davis. Will you rise with me and raise your 
right hand.
    [Witness sworn.]
    Chairman Tom Davis. Thanks for being with us this morning. 
We appreciate all that your organization has done and look 
forward to your perspective on this.
    Ms. McGinnis. Thank you very much, and I also want to thank 
Congressman Armey for his leadership on this issue. When you 
talk about the Congress's lack of interest, your leadership 
really stands out over the years, and I hope that will be a 
legacy that will come alive even more. And thank you, Chairman 
Davis, for focusing on how we are doing with the Government 
Performance and Results Act and stepping back to think about 
how it might be improved.
    As you know, and everyone here who we've worked with, the 
Council for Excellence in Government is a nonprofit, 
nonpartisan organization, and we have two goals: improving the 
performance of government and improving the public's trust and 
participation in government. Those two goals are intimately 
related, and both are quite connected to the Government 
Performance and Results Act.
    I do not think that the potential, the intent of this act 
has yet been fully realized, although a lot of progress has 
been made. And when you read the statute, this--actually, this 
probably should get an award for one of the most readable 
statutes ever enacted, because it makes so much sense. I mean, 
it really lays out a commonsense way of approaching goal 
setting, management and accountability. If it does realize its 
potential, it's not only a tool for managers and funders but 
also a tool for the American people to hold their government 
accountable. So the stakes are high here, and making it work is 
very important.
    The law was enacted, there was a very much--a phased 
approach to implementing it, and that made a lot of sense in 
terms of changing the culture, changing the practice. But, 
unfortunately, I don't think it has been accompanied by strong 
enough leadership either in the executive branch or outside 
this committee and the Senate Committee on Governmental Affairs 
in the Congress, especially in the authorizing, appropriation 
and tax-writing committees. We just have not seen this embraced 
as a valuable tool to make decisions about program design and 
funding. So on a governmentwide basis--and the Comptroller 
General has noted some of the agencies that have done a 
terrific job with their strategic planning, but if you look at 
it governmentwide, we have not achieved the potential by any 
means.
    I want to say a word about the President's Management 
Agenda and the PART, because I think that this reflects a real 
seriousness by this administration about not only setting goals 
but measuring performance and, even more importantly, 
connecting that measurement of performance to budget decisions. 
I mean, that's where you see the seriousness of this, in the 
fact that budget and performance integration is at the center 
of the President's Management Agenda. Then when you look at the 
PART, which came along a year later, you see again seriousness 
and commitment to looking at how these programs are doing, what 
is measurable, where there are gaps in the data--and that's 
actually a pretty big problem with making this work in the long 
run and that needs to be attended to. So we do see a 
seriousness in the executive branch, but I think in the 
Congress we have not yet seen that except in a few very 
selected areas. If you ask me what the biggest challenge is 
now, I would probably point in that direction in terms of 
leadership and taking this seriously.
    This year, for the first time, the Reports Consolidation 
Act requires agencies to combine their financial reports with 
performance reports; and this is an amazing opportunity to 
begin to present to the Congress and the public a meaningful 
picture of what their tax dollars are being spent for and to 
explain performance and results in an accessible way. So that 
is an opportunity that we need to take advantage of through 
this GPRA framework. As the owners of government, the American 
people deserve to receive an understandable accounting, and 
they are not receiving that at this point in an understandable, 
accessible way.
    Let me make some suggestions about improving the statutes. 
Some of the suggestions I'm going to make will require 
statutory change. There are other suggestions that could be 
done without statutory change, but they do require a change in 
culture, a commitment that is impossible to legislate. But I 
think, working together, the executive branch, the Congress and 
many of the other organizations that David Walker mentioned 
could make this a reality.
    One suggestion is that you consider shifting the strategic 
plan cycle from every 3 years to every 4 years to conform to 
the Presidential terms. The plan should be required at the same 
time the first full budget is released in February of the year 
following inauguration. All agencies should have to produce new 
strategic plans that are consistent with the new President's 
policies and budget. Also, we suggest requiring the program 
goals, measures and performance data reported in the plans and 
performance reports to be consistent with those in the 
President's budget.
    Then addressing the Congress--and this requires I believe 
rule changes or at least changes in practice--we would suggest 
that each appropriation act specify the goals, measures and 
performance data it's based on and identify the gaps and the 
need for additional information. This would create a 
constructive conversation on these key issues in the funding 
process. Similarly, we would suggest that every significant 
program authorization tax expenditure provision and mandatory 
spending provision specify the goals and performance measures 
expected to be used to judge whether statutory purposes are 
being achieved.
    Also, we would--and this is a really important point in our 
view--the absence of sufficient rigorous evaluation of what 
approaches in government programs are actually working to 
produce results. The Government Performance and Results Act 
does mention evaluation and requires a listing in the plans and 
reports of evaluations that are scheduled or under way, but I 
think it might make sense to go a little further than that and 
in fact require every large-scale authorization, tax 
expenditure and mandatory spending provision to include funding 
for long-term, rigorous evaluation of results.
    In many cases where programs are not working well in the 
Federal Government, it's not because they aren't intended for 
the right purposes or for the right audiences; it's because we 
simply don't know what approach works better than another 
approach because we haven't evaluated it rigorously. And you 
all are familiar with an example of that in the DARE Program, 
which has been one of the most popular drug abuse education 
programs across the country for years. Once it was rigorously 
evaluated, guess what? We found out that it didn't really make 
any difference. So that program is being redesigned and 
changed. It's not that you wouldn't fund that effort, it's that 
you would want to fund an approach that would actually work.
    So investing in evaluation and holding the program 
designers and funders accountable for that is really for 
important. Every appropriation act should have to provide an 
annual amount for such an evaluation consistent with the 
assessment of what the particular program needs are. These 
studies are expensive, they are complicated, and they are time 
consuming; and, as you know, they are often resisted by program 
advocates because sometimes it's tough to find out that the 
approach that you've been advocating doesn't really work. But 
this is a serious issue, and it really is at the heart of trust 
in government. The people around the country are seeing huge 
amounts of money spent on programs for purposes that they agree 
with, but I think we are not seeing the results, the return on 
that investment, and we need to understand that better. Also, 
we would suggest requiring the annual integrated performance 
and financial reports again not only to list the evaluations 
but to report the status of the evaluations for each goal and 
how those findings are used to assess programs in meeting the 
goals and how program direction has changed as a result of 
that.
    Another suggestion we would make relates to something that 
David Walker said, and that is taking a cross-cutting look at 
how programs together that are intended--that have similar 
purposes--are performing. So we would suggest requiring that 
strategic and annual plans and performance reports that address 
similar programs and multiple agencies be developed 
collaboratively by those agencies, identifying cumulative 
effect and spotlighting the overlap and unproductive 
duplication. And, where appropriate, it would make sense to 
also require the plans and reports to specify how related State 
and local government and private and nonprofit sector activity 
are taken into account by these programs.
    Again, it's hard to legislate changes in thinking and many 
changes in commitment and behavior, but GPRA is an essential 
and important framework for effective planning and management, 
and it's also essential for the public to figure out what 
government's doing and how well it's doing. So we appreciate 
your leadership and look forward to working with you to make 
this more robust and powerful.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. McGinnis follows:]
    [GRAPHIC] [TIFF OMITTED] 90481.038
    
    [GRAPHIC] [TIFF OMITTED] 90481.039
    
    [GRAPHIC] [TIFF OMITTED] 90481.040
    
    [GRAPHIC] [TIFF OMITTED] 90481.041
    
    [GRAPHIC] [TIFF OMITTED] 90481.042
    
    [GRAPHIC] [TIFF OMITTED] 90481.043
    
    [GRAPHIC] [TIFF OMITTED] 90481.044
    
    [GRAPHIC] [TIFF OMITTED] 90481.045
    
    [GRAPHIC] [TIFF OMITTED] 90481.046
    
    [GRAPHIC] [TIFF OMITTED] 90481.047
    
    [GRAPHIC] [TIFF OMITTED] 90481.048
    
    Chairman Tom Davis. We have been joined by Representative 
Platts who chairs the subcommittee with jurisdiction over GPRA. 
I just want to thank his staff for helping us set this hearing 
up today, and I know he wants you to come before him again.
    I don't think we can talk about these issues too much, and, 
judging from the testimony, we need a greater awareness in 
Congress and among the public about what valuable tools they 
can be if employed properly. I think John F. Kennedy said that 
we campaign in poetry and we govern in prose; and we are today 
talking about the prose of governance, the footnotes, the 
details, the decimal points that can make or break programs.
    You know, if good intentions and good will and dollars 
could solve our problems, we would have solved them a long time 
ago, but public policy is very tough. But like the DARE program 
and all the T-shirts and hats and everything that were handed 
out--I was there at a lot of the rallies--if they are not 
working, it's up to us sometimes to have an honest evaluation, 
even to stand up to interest groups who have vested interests 
in programs and take an honest appraisal of what works.
    We had this problem with the District of Columbia schools 
last week. Mr. Armey, you for years have championed the voucher 
program, and I've been a reluctant supporter. We passed it 
again in the House this year and have received surprising 
support from people like Senator Lieberman and Senator 
Feinstein who said, ``Look, we believe in public schools first, 
but if the programs aren't working we need to look at new 
things.'' It's hard sometimes getting through interest groups 
and everything else to have an honest appraisal, but that's 
what GPRA is designed to do.
    I'm touched by the fact that I think everyone touched on in 
their testimony, the difficulty between the ``awareness'' of 
accountability and the ability to transform results in the 
Appropriations Committee and other committees in Congress where 
we can probably have the most effect. I think one of the 
difficulties of that is the role that interest groups and local 
constituencies play in terms of getting government's largess 
and help on their programs and the difficulty we have sometimes 
in sorting through that for the taxpayers' benefits. So we've 
got a lot of questions I want to move through.
    Just one other quick anecdote is, when Rudy Guiliani was 
elected mayor of New York, he'd hold these town meetings 
throughout the city, and the No. 1 request he'd get at these 
town meetings is for stop signs through neighborhoods, people 
running traffic and what this did to the old people, the 
elderly and the kids and everybody else. He'd go back to Gracie 
Mansion and he'd dictate a memo and they'd come out and they'd 
do the engineering studies to see if it met the international 
traffic warrants for signage. And of course they never got a 
stop sign. He'd go back the next year and they'd say, where is 
the stop sign, Rudy? So he finally got the joke and he would go 
out there and he would load his trunk up with stop signs in his 
car. They'd talk about a stop sign and the need for it in 
detail and he'd pull the stop sign out there and give it to 
them. It's the difference sometimes between a process-oriented 
government, in which it's very difficult to get anything done, 
and a results-oriented government; the difference between 
getting a thoroughbred and getting a camel.
    There's, of course, a need for process in government, for 
openness, for transparency. These are the things we rely on 
government to do. By its nature, we're probably less efficient 
than the private sector. But, at the same time, sometimes just 
the process drives the outcome, and the result is negative for 
taxpayers and for the people we are trying to help.
    Let me start with the former majority leader. Mr. Armey, 
what do you think? Mr. Armey also has a Ph.D. in economics. He 
actually had a career before he got into politics and a lot of 
knowledge on these issues. How do we translate the promise of 
GPRA to the appropriations and the tax-writing committees where 
it can really have clout? That's where the big dollars are, it 
seems to me. And, politically, how do you get through this maze 
of interest groups and local constituencies and so on that 
weigh the other way in the process? Any idea?
    Mr. Armey. I appreciate you asking me that, Mr. Chairman. 
And I want to appreciate what Ms. McGinnis and Mr. Walker said 
regarding our committees, because it was a terrible frustration 
with me.
    And if I can again take a moment to take a--remember with 
fondness Virginia Thomas, bless her heart. Virginia Thomas was 
a member of my staff who I dedicated to this task. And, 
basically, Virginia and I, what we tried to do is create a 
symbiosis between the authorizers and the appropriators with 
this committee and its jurisdiction, sort of a foundation on 
the whole question of oversight.
    I look back on the now 10 years--almost 10 years of the 
Republican majority, and if there is a skill set that this 
Republican majority has not yet attained well, it's oversight. 
I have to say, by the time I got here the Democrats were in 
their 30th year of their majority, uninterrupted majority. And, 
as I said earlier, Jack Brooks was my first observed, and they 
had developed an oversight skill set. I would say that between 
Jack Brooks and John Dingell it was perfected, perfected to the 
terror of agency heads that were called before the committees.
    Oversight doesn't have to be a terrifying process, but it 
should be a rigorous process. The appropriators seem to have 
fairly good skills on oversight, but they target the oversight 
more or less at the money and at appropriators--what should I 
say--focused attention sometimes parochially. But when they--
when the appropriators do oversight, they achieve a level of 
rigor and thoroughness. I just don't think they have ever 
really got in the spirit of seeing how they could coordinate 
their oversight leverage, which is, of course, the power of the 
purse, to our efforts to implement the Results Act; and I think 
that can be encouraged. We tried to encourage that.
    The authorizing committees for the most part I believe in 
this body have never achieved a very high level of skill in 
oversight, nor do I think they devoted much attention or 
interest in it as a general rule. When we tried to encourage 
greater interest, it was the authorizers. Basically, the effort 
that I got----
    I remember one very sensational meeting with somebody 
singing the song Devil With A Blue Dress On to Virginia Thomas, 
who I believe never wore a blue dress to a meeting again after 
that. Because, quite frankly, she was a woman of fairly 
assertive personality, as well she should have been in that 
instance, and it was met with some unkind resistance.
    Chairman Tom Davis. Well, let me ask a question.
    Mr. Armey. If I may continue.
    Chairman Tom Davis. Sure. You bet.
    Mr. Armey. The appropriators' attitude was, we know how to 
do oversight and we do it better than anybody else around here, 
so we need no encouragement or any instruction. The authorizers 
basically said, that's not our business, we don't do that. And 
that has been the problem we have fought.
    Now--I'm sorry.
    Chairman Tom Davis. No. I think one of the difficulties has 
been that you get a popular program up, and Ms. McGinnis talked 
about the DARE program, but it's everything from student loans 
to lunches and everything else, and there are studies that show 
maybe it's not the most efficient way to deliver it. Members 
are asked to look at--we just had a big vote on Head Start, and 
I don't want to get into the politics of that in terms of maybe 
doing it a little more efficiently, and all of a sudden Members 
end up getting targeted by groups with interest in the program 
even though there may be a more efficient way to deliver it, 
and it becomes political hot potatoes. I mean, on Members this 
puts a lot of pressure to change things, because every program 
once it's passed gets a constituency, and that's why there's 
nothing closer to eternal life than a government program once 
it's created constituencies. And you start changes, and I saw 
it in my first reelection: ``Congressman Davis voted against 
this and against that''--I just voted for a different way to do 
it based on some studies. But there is a huge reluctance, a big 
inertia factor.
    I see Mr. Walker with his hand up.
    Mr. Walker. Mr. Chairman, several of us talked about the 
issue of cultural transformation. That's really what we are 
talking about here. I mean, we are talking about a cultural 
transformation on Capitol Hill. The executive branch 
realistically is going to be ahead of the legislative branch on 
cultural transformations because it has one chief executive. 
You now have the President's Management Agenda, you now have 
the Program Assessment Rating Tool and things that are focused 
on this. There needs to be a cultural transformation in the 
legislative branch.
    Candidly, my experience in both the public sector, having 
run two executive branch agencies and now GAO, and having run 
several lines of business in the private sector, is, before you 
can have a cultural transformation, you have to have the 
affected parties recognize that we are on a burning platform--
not literally, but figuratively--that the status quo is 
unacceptable, that the status quo is unsustainable.
    In that regard, I gave a speech to the National Press Club 
talking about changes and challenges. We are on a burning 
platform. We have to make tough choices. I will provide a copy 
for your information, and if you think it's worthwhile to put 
it in the record for this hearing. But the fact of the matter 
is, these various parties have to be convinced that the status 
quo is unacceptable, and that we are on an unsustainable path. 
If that can be done, believe me, this is a very valuable tool 
that can be used to try to help make informed judgments in this 
regard.
    Chairman Tom Davis. Let me make a comment and get a 
reaction from all of you. A lot of the innovation we see in 
State and local governments, these are your laboratories of 
democracy. But they run on balanced budgets and so they are 
forced to make changes sometimes in the way they deliver 
programs, because they have to balance it and they have to 
either cut a service out altogether or figure out a new, more 
efficient way to do it. Sometimes we don't face the same 
pressure here. We just print more money and keep going on. Is 
that probably one of the differences we see? And how do you 
instill that discipline?
    Mr. Walker. Well, it is--I mean, the fact of the matter is 
we don't have a balanced budget requirement. Whether we should 
or not reasonable people can differ on. We don't have a rating 
on our debt. We don't have a stock price. So this is a valuable 
mechanism to be able to demonstrate what kind of resources 
people are getting, and what kind of results they are 
generating. But we have a big gap that we have got to close, 
and we need to use every tool that we can get to help make 
informed judgments on how to close it.
    Mr. Armey. And may I also just add a very big component is 
courage. The fact of the matter is, Congress has in the past 
created things that have become political sacred cows. I can 
remember sitting in the Education Committee years ago and 
marvelling at then Congressman Tom Tauke's courage in saying we 
ought to measure what real results we're getting from Head 
Start, and I really expected to see the ceiling come down on 
the poor man. But the fact that he dared to say we ought to 
have an objective measure of the real results of a sacred cow 
was a source of quite a bit of encouragement. I was fully aware 
that Tom Tauke, being from the more moderate wing of our party, 
had more license to say that than I did. Had I said it, the 
roof would have come down. But Tom at least was able to pose 
the question.
    Now, once the question is posed, then people must step 
forward and say, you can't expect the agency to take that 
initiative. They don't have the responsibility to the public 
interest that the elected official has. Until we can obtain the 
courage out of Members of Congress, we will not get objective 
measures, programs, perhaps some longstanding, and large costs 
that really do not indeed deliver the results. Does Head Start 
do that? I don't know. I know that one time I heard Tom Tauke 
ask the question. I am not sure I've ever heard it asked since. 
But I doubt that the measurement has ever taken place.
    Chairman Tom Davis. Well, I assure you, we had a huge vote 
on revamping that Mike Castle led the way on, that was very 
close. And as you say, a lot of issues, and we could stand here 
today--I'm sure there are different perspectives on the 
committee, but it has continued to be looked at, not in terms 
of cutting help to the people we're trying to help, but the 
best way to deliver it.
    Mr. Johnson.
    Mr. Johnson. I was going to say, one of the things the 
executive branch and also Congress needs to understand is that 
performance is not to be feared. I know when we first started 
talking about the PART, there was concern in the agencies that, 
``Oh, a low PART score means funding gets cut and a high PART 
score means funding gets increased.''
    A bad performance score for a program, Head Start or adult 
literacy or a defense program, whatever, should not mean that 
funding automatically gets dropped, gets lowered, or the 
program gets dropped. It should mean that we should stop and 
ask ourselves what was planned, what was intended, what's the 
definition of success, how successful are we? If we aren't as 
successful as we intended when we passed the law, what can we 
do differently? How can we restructure it?
    Maybe we're spending too much money, maybe we're spending 
not enough money. Maybe we need to combine it with this or 
that, but asking the question, ``Is Head Start working?'' ``Are 
adult literacy programs working?'' It is not to be feared.
    Adult literacy programs do not work. I think we like the 
notion of literate adults. I think that's the business we want 
to be in. They don't work, so the goal is not to get out of 
that business; we need to figure out how to better structure 
programs to help illiterate adults become literate, and it 
starts with the understanding and belief that performance 
information, there's nothing automatic about observing and 
America ensuring and concluding that something does or does not 
work. The key is, what's the so-what of it, what's the next 
step that takes place as a result of knowing that.
    Chairman Tom Davis. Let me ask one other question before I 
turn the questioning over to Mr. Platts.
    It's been suggested by a couple other speakers that maybe 
instead of 3-year or 5-year performance, we do 4-year so it 
coincides with each of these administrations. But you were head 
of Presidential personnel. My experience is, it usually takes 
the administration a year to get things up and running. As we 
said, we campaign in poetry, but translating this into prose, 
it takes a year to get your people in place, to get the 
programs in place.
    The administration is really now up and running on these 
issues, but for the first couple of years, you're coming in, 
trying to understand everything to get people in place.
    I was wondering if you and Ms. McGinnis could talk about 
that, because that's one of the concerns I have with trying to 
coincide with 4 years. We have the same problem with our 
Governors in Virginia on the budget, so----
    Ms. McGinnis. What I could just say to start is we are 
suggesting a 4-year cycle that would begin the year after.
    Chairman Tom Davis. So you'd give them a year to get up.
    Ms. McGinnis. You would give that full year, so this would 
begin with the first full budget that the administration 
proposed, not 1 month after taking off.
    Mr. Johnson. Right. But again, those strategic plans are 
agency wide, and to ask the question, ``How is the Interior 
Department performing, how is housing or HUD performing?'' 
That's almost akin to asking, ``How long is a piece of 
string?'' Well, what part of HUD or what part of Interior? And 
that's one of the things that we're suggesting, that the bulk 
of the conversation be about individual programs or like 
programs or types of programs, because you're talking about 
something with a much more specific ideal, much more specific 
target measure performance, and the conversation would be much 
more targeted and much more focused on the ``so-what'' of it, 
what might we do if it's working well, or not working well.
    Chairman Tom Davis. And even a department could be 
implementing a program well.
    Mr. Johnson. Right.
    Chairman Tom Davis. And the audits look great, but the 
results are----
    Mr. Johnson. Right.
    Chairman Tom Davis. I understand. And then I'm going to 
turn to Mr. Platts.
    Go ahead.
    Mr. Walker. As you probably recall, Mr. Chairman, the GAO 
does a strategic plan in consultation with Congress; and what 
we do is similar to what the recommendation is of Ms. McGinnis: 
We end up updating our plan and publishing it a year after 
there's a new Congress, the reason being there may or may not 
be a change of control, but even if there isn't a change of 
control, now you have term limits on committee chairs and, as a 
result, there can be some changes in key players even if there 
isn't a change in control.
    So I think the concept of saying, give the Congress, give 
the administration, the new players, a year has a lot of merit; 
and I think--every 4 years, I think, has merit as well for the 
executive branch.
    Mr. Armey. May I make one final point, Mr. Chairman? There 
is what I have always thought to be a companion piece to GPRA 
called the Congressional Review Act, and I think perhaps you 
might take a leave to encourage to the leadership that the 
authorizing committees avail themselves of that oversight 
instrument. This gives them a real stake in the claim, and as I 
understand it, it goes like this: We wrote the law, it got 
signed by the President, it got put within the responsibility 
of your agency, and now we have a duty and an interest in 
seeing that your implementation of the law is consistent with 
our intent of the law. This is a very important oversight 
activity.
    My guess is as you can encourage the authorizers to be more 
involved in the business of oversight, they'll be more willing 
to complement your activities, and the best way to encourage 
them to be more involved in the business of oversight is to 
encourage them to be involved in their own interest, reviewing 
the implementation of the laws that they themselves created.
    Chairman Tom Davis. Thank you very much.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. And first I'd like to 
thank you for holding the hearing with Mother Nature, 
unfortunately, not cooperating with us to allow a broader 
membership here.
    Chairman Tom Davis. That's great for you and me, because we 
get as many questions as we want.
    Mr. Platts. Right, we get more time. But I do have an 
opening statement I'll submit for the record.
    Chairman Tom Davis. Without objection.
    [The prepared statement of Hon. Todd Russell Platts 
follows:]
[GRAPHIC] [TIFF OMITTED] 90481.049

    Mr. Platts. I apologize for my late arrival. I'd also like 
to thank all of the panelists for being here today and for your 
work, past and present, on behalf of our fellow citizens.
    I guess where I'd like to start is maybe with a question 
for each of our witnesses. The GPRA kind of set the big 
picture, and very importantly, that we start looking at 
performance, and to its great credit--and it goes to the issue 
that, Mr. Walker, you addressed, the cultural transformation--
this administration, President Bush, is trying to have a 
cultural transformation, in my opinion, in taking GPRA and its 
big-picture outlook and how to take that to the next level down 
and the program evaluations with PART.
    One of the challenges was going to be--for PART to have any 
meaningful impact long-term, is that we build every year on 
basic knowledge; and, you know, this year's appropriations and 
the 20 percent that are evaluated, we have that, and next 
we're--we see what happened in response to those evaluations 
being done.
    Apart from the measuring agenda is executive action. How do 
we make that level of GPRA now become permanent, and is it 
necessary that we look at codifying PART as an extension of 
GPRA so we get into that program permanently, not simply 
because we have an administration today that's making it a 
priority to look at actual performances of programs.
    And, Mr. Armey, maybe we'll start with you.
    Mr. Armey. Well, it's very difficult. We've talked about 
that a great deal.
    What I had always hoped for during the 8 years that I was 
privileged to be majority leader was that we would have a 
unified leadership position. Now, ideally, if you could have 
that unit through the major leadership offices of Speaker on 
one side with all of the leadership offices of his caucus and 
the minority leader with all the leadership offices of their 
caucus--I'm thinking that Steny Hoyer might do very well to do 
so with so many agency people in his district. If you could get 
a unified leadership commitment to effective and thorough 
oversight, which, I'm sorry to say, I never was able to muster 
in my 8 years, then I think to a large extent you're trying to 
effect a cultural change with the committees and the chairmen. 
And the only instrument I know by which that can be done would 
be effective--this kind of a unit, I think. You're chairman of 
this committee, a very popular person. It's very possible, Mr. 
Davis, that perhaps you could broker that kind of unified 
commitment. You being a man of far more considerable tact and 
charm than I exhibited in my efforts, I would expect you might 
have better luck.
    I might also say, though, cultural change does take place 
when there is a symbiosis of ideas; and just as a thought of 
encouragement, Mr. Platts, I was sitting here, thinking about 
your tenure here in Congress. You very likely have very rarely 
heard the expression ``continuing services baseline budget.'' 
For the first 10 years I was in Congress, all budgets started 
on that basis, and the tacit implication was, ``We want to make 
sure we can do next year exactly what we did last year;'' and 
that message just sort of permeated people's attitudes.
    Well, what GPRA's about is, ``Let's see if we can do 
something different and better than we did last year;'' and 
now, frankly, we don't budget with that language anymore, and 
I'm not sure we budget with that spirit anymore. There's 
probably a continuing, spirited baseline hangover in the 
process, but there is not the governing conceptual framework, 
so change does take place.
    The more people that represent the advocacy, are the 
cheerleaders for it, especially people in high places, the 
quicker it'll happen, but I do believe this committee can 
encourage the other committees. I mean, I know this, even 
during the 8 years that I was here, this committee, I think, 
kind of got off the oversight track onto a more sensational 
track, and generally speaking, Republicans got a bloody nose in 
every effort they ever made. But it became a sense that 
oversight is not fun, and it is dangerous, and other people 
developed an aversion to it.
    I think Steve demonstrated to a lot of members that you can 
be recognized and you can be appreciated and you can have 
success in oversight, and it can be fun. Steve Horn, I think, 
is a good example for all of us, but this committee can be that 
good example for the other committees.
    Mr. Platts. And before we move on, Mr. Leader, I appreciate 
and share that perspective, and as one who's been given the 
privilege of succeeding Mr. Horn in his chair of the Government 
Efficiency Subcommittee, when we've had our oversight hearings 
and--you know, with various agencies that had a very good 
dialog between agencies and GAO and personnel there, our 
committee--one of the things I tried to emphasize is, this 
isn't a ``gotcha'' committee approach. We're not looking to 
generate headlines. We're looking just to have good 
communications.
    So let's say the executive branch is important; GAO 
officials are there and help us to work as a team. At the end 
of the day, we really are not spending money because that's the 
way we spent it for the last 20 years, but we're spending it 
because it's really benefiting the people of the Nation as it 
should, and we should be responsible.
    Mr. Johnson, if----
    Mr. Johnson. Is your question things we might do to----
    Mr. Platts. Well, specifically, it's to take, you know, 
what the administration is currently doing. And I have some 
other questions to get into, how that's working in specific--
but as one who believes PART is a very positive step, how do we 
make sure it's a permanently positive step as opposed to just 
this administration? So should we legislate it as an extension 
of GPRA, or are there other things we should look at?
    Mr. Johnson. I think we do need to look for ways to 
institutionalize results orientation, and I don't know whether 
it requires legislation or Executive orders or what it takes in 
terms of the process. I think we can make--the executive branch 
can make demands on themselves and the things we look at and 
the things we provide to you, or you could take action, things 
you require of us.
    I know one of the things we have to do. Robert Shea and I 
used to work with the House and Senate on Governmental Affairs 
and talked about how we can work with Members of Congress to 
think through how performance information can be used. And 
perhaps what we need to be more aggressive about is, let's take 
some real programs or some sample programs and a variety of 
different scenarios: We don't know how it works. We do know how 
it works, and it's great. We do know how it works, and it's 
bad. High-profile programs. Low-profile programs.
    Maybe it ought to be hypothetical to remove some particular 
sensitivities to it; sit down with some staffs initially and 
talk through, ``OK, in this situation, what would Congress' 
approach be? What kind of openness to attacks do they face? 
What things should the executive branch be doing? What kind of 
performance changes should we be considering, what type of 
budgetary, appropriations things should we be considering to 
develop an understanding of, if and when we had a lot of 
performance information, how should it be used? And where do we 
run into political problems, where do we run into getting-it-
done problems? Where do we run into labor problems?''
    And then, get a larger audience, go to elected Members, 
work it through with them, so we think through, as opposed to, 
``here's performance, live with it;'' because I'm not sure we 
know how to do that. I'm not quite sure we know in the 
executive branch--if we have detailed performance information 
on every program, I'm not sure we're equipped and have the 
process in place to really effectively react to that kind of 
information. And I'll bet the same thing is true of Congress, 
so maybe we game it out and practice it and think through what 
the implications are on a small scale before we decide to look 
broadly.
    I think that's why Mitch Daniels and Sean O'Keefe, who 
originally developed the PART and conceived of doing this over 
5 years, were very wise. This is not something you need to rush 
into, and sometimes the first evaluation of a program is not 
the best evaluation and you have to think through, ``How do you 
really measure success on some of these hard programs and what 
are the implications you get back in the answers to these 
questions,'' and then take those and try to work out with 
Congress what the implications are in terms of how we ought to 
work independently of each other and also together.
    Mr. Walker. Mr. Platts, I would say the first things you 
ought to do when you're looking at new legislation--what are 
you trying to accomplish, why do you need it, does it already 
exist in government, how do you measure success--and try to 
define those types of things in considering whether or not 
legislation should be passed and as a critical element of 
anything that is passed.
    And second, I think what you have to do is, you have to 
recognize, in my opinion, that the Federal Government today is 
on an absolute, unsustainable path and debate is not OK. We 
have an amalgamation of programs, policies, functions, and 
activities over decades, much of which may have made sense when 
they were created, some of which may still make sense today; 
others don't, and others may not make sense tomorrow, but 
because the world has changed dramatically, our position in the 
world has changed, our fiscal situation is very different. We 
face a demographic tidal wave. It's not going to go away; it's 
right on the horizon. Tough choices are going to have to get 
made.
    Now, intellectually, I would say that, understanding that, 
the primary responsibility ought to be on the executive branch 
agencies after the law is enacted. They need to be given more 
guidance of what Congress expects, but the primary 
responsibility has been the executive agency. OMB has an 
important role to play to second-guess whether or not the 
agencies are doing what they should have been doing in linking 
resources because the President has to hold them accountable 
and has to propose budgets.
    Congress has to do a lot more in this area because 
candidly, right now there is little evidence that Congress has 
any meaningful way to link resources to results--you know, to 
date. But, intellectually, it's a non-partisan issue to be able 
to say ``We have spent a lot of money on this, we've given a 
lot of authorities. How are they doing?'' I mean, is it 
working? Is it not working?
    And to get the facts, reasonable people can differ on those 
facts, but you got have have the facts before you can have an 
honest intellectual argument. But tough choices are going to 
have to be made by this Congress and by more than just this 
committee. And this can be a valuable tool, a valuable 
mechanism, to make it on a more timely and on a more informed 
basis.
    Mr. Platts. Ms. McGinnis.
    Ms. McGinnis. Congressman, I do think that there should be 
a more explicit and permanent connection between the use of 
performance information, not only performance information, but 
the results of rigorous evaluation of program approaches; a 
more explicit connection between that and program design, which 
is done largely through the authorization process in Congress, 
the funding of programs by the appropriators and the management 
of programs in the executive branch. Changing the GPRA statute 
could contribute to that, but as I suggested in my testimony, I 
think it may require some rule changes in the Congress, in the 
way the appropriations and authorizations legislation are 
developed.
    Let me just add that there is a difference between 
performance information and the results of rigorous evaluation, 
and let me see if I can give an example of that, because I 
think the PART is very effective in putting the focus on the 
generation of information about performance and using it in 
budgeting. But if you're looking at a program--adult literacy 
is the one that Clay Johnson mentioned--if you look at the 
performance information, you'll see that this program is not 
producing the intended results.
    If you also invest in some long-term evaluation of 
different approaches with a control group you can begin to see 
what approaches under the label of ``adult literacy'' actually 
work. So we need both, and the fact of the matter is, in 
addition to making that connection more permanent and more 
explicit, we need a larger investment in evaluation. I mean, 
even in the PART process, if you look at it closely, you'll see 
that the data doesn't exist in a lot of cases where you can't 
assess performance, given what we have now. So that's another 
issue that needs to be taken up.
    Mr. Platts. It certainly sounds like, with agreement on 
PART and the benefit and the direction you're heading--but 
perhaps we're premature--as to whether we should codify PART in 
GPRA; and the sense of this being, first, 20 percent and how 
we're actually going to use PART because of the--maybe the 
concern that GPRA is a paperwork exercise. But we're not really 
using GPRA as effectively, you know, today as we could be, and 
perhaps our focus should be really about getting more into 
where GPRA allows us to go and not necessarily move forward 
with just creating a new law that makes it look like we're 
creating a new law, but really not using the tools we have.
    Mr. Walker, do you have a thought?
    Mr. Walker. You may not have been here when I spoke before.
    Other than this committee and Senate Governmental Affairs, 
there is not much activity in using the information that's 
already there. The executive branch is on the case. Some 
agencies are doing better than others. The administration is 
taking this very seriously.
    The real work that needs to be done, quite frankly, is the 
Congress has to come up the curve. The Congress has a long way 
to go in coming up on this issue, and this is a nonpartisan 
issue. It really doesn't make a difference what party's in 
charge.
    Chairman Tom Davis. If you'll yield just 1 second, that's a 
pretty brave statement for a man who reports to Congress and 
not the administration, but----
    Mr. Armey. And if I may, I'd like to second that, and I'd 
like to again----
    Chairman Tom Davis. Since you don't have to run for leader 
anymore, you can say whatever you want.
    Mr. Armey. I can.
    But if I may go back, this legislation was created in 1993 
with a Democratic Congress and a Democratic President. There is 
no partisan purpose here, and it is something--we ought to be 
able to put partisanship aside. If the goals and objectives of 
legislation are heartfelt and precious, like Head Start, all 
the more reason Congress would take on the responsibilities of 
seeing to it that we get every bit of value for our dollar 
commitment to that program and all the more remiss we are if we 
do not do the appropriate oversight.
    Mr. Platts. But I think you captured what Mr. Walker was 
talking about when we created a new program, and I think it 
goes hand in hand with reauthorizing existing programs. And I 
forget the gentleman from New Zealand, Mr. McKee, that we had 
before our subcommittee and he talked from his own experience, 
you know, in legislative work in New Zealand, and he asked 
those questions. He has a list of questions that he goes 
through and whether you should even begin a program.
    And I think so often what our focus is, whether it's Head 
Start and preschool or early ed issues, whether it's literacy, 
our focus here in Congress becomes the program instead of the 
service we're trying to provide, and that gets to his comments 
and, Mr. Walker, yours today, that the focus is--we can agree 
with what we want to do, using Head Start, needy children who 
are not getting the benefits; that we're going to make sure 
they're the best citizens they can be, whether it be reading, 
whether it be other social service needs.
    But our focus is on that preliminary existence as opposed 
to, ``Is there a better way.'' Maybe there isn't, but we need 
to focus on how to make that program better.
    You're right. I think Congress is, in my short time here, 
coming on 3 years, our focus is on the existing programs, not 
is there a better way, but what to do with this program.
    I do have a followup, Ms. McGinnis, on your suggestion 
regarding, perhaps, rule changes in Congress. Is one that you 
envision--and my appropriating friends will cringe when I make 
this suggestion, if this is what you meant by that was the 
example of unauthorized appropriations, so that something 
that's not worked its way through the authorizing committee and 
through the process just gets right into the appropriations 
bill and is funding something that's really not had the 
additional scrutiny. Is that the type of rule change you 
envision?
    Ms. McGinnis. Actually, that's not one I addressed, 
although that's an important issue.
    What I had suggested was that every appropriation act have 
to set out the specific use of goals and performance data in 
coming up with the funding, and identify gaps in that data, so 
that you basically are changing the practice of using 
performance information in making funding decisions and 
explaining how it's been used.
    Same thing with authorizers in the design of programs, but 
having this process be more connected to actual results and the 
promise of results is really, I think, a theme that we're all 
hitting on, and it really gets to the accountability and lack 
of trust of the American people in their government 
fundamentally.
    Mr. Platts. I have some followup, Mr. Chairman, but I yield 
back.
    Chairman Tom Davis. Go ahead, Mr. Johnson. You can go 
ahead.
    Mr. Platts. Sure.
    Mr. Johnson. Just one comment. Do we need a bill or do we 
need something to codify? I don't think we need any bills or 
legislation to institutionalize any of this yet. We're in only 
the second year of evaluating specific programs, so we're in 
the first year of following up on the ``so-what'' of it. If 
this program doesn't work, what do we do about it.
    It strikes me that the responsibility should be in the 
executive branch to take performance information we have now 
from the 40 percent of the programs that have been evaluated 
and use that information to inform our recommendations to 
Congress, budget recommendations.
    The responsibility should be ours to make that and to base 
as many of our decisions, as many of our recommendations as 
possible, based on whether the program works or not; and there 
are other political considerations and opportunities and so 
forth, but make sure we are referencing performance information 
at every turn. It would then pass to Congress to actually pay 
attention to it.
    A lot of what we hear now is, don't even bother to send us 
that performance information or send it to us in a separate 
document if you want, if you need to.
    Somehow, again, Congress or the executive branch--very 
brave of David to make these comments about Congress, better he 
than I, but Congress has to, one, be willing to pay attention 
to that; and there's no automatic if this is the performance, 
this is the assessment we automatically do that. There is no 
automatic anything; it is an indicator that they have to be 
open to at least consider the potential relevance of 
performance information, and they are not now so, if we do our 
part, then Congress needs to be challenged to do their part.
    Mr. Platts. Mr. Johnson, that kind of leads me to my next 
question, which is the relationship and how the interactions 
occur between OMB and the agencies regarding the program 
evaluations and taking the first 20 percent where we had just--
over 50 percent saying the result's not demonstrated. I mean, 
it wasn't a good picture. So with those 100 and/or, I guess, 
234 programs specifically, what is the OMB doing in response to 
that information now, going into the next year, and how is that 
refining perhaps your next 20 percent at each stage?
    Mr. Johnson. For the programs for which there are--it's not 
clear. Some of these things are very hard to measure, and it 
never dawned on anybody when these programs were created 
whether they would work or not, so--how you measure things 
like, ``are we doing a good job of managing the drug situation 
in the United States or adult literacy''--so we're looking for 
spending more time paying attention to how do you measure 
performance, how do you measure success. And then we're paying 
attention to the quality and aggressiveness on followup, on the 
recommended next steps that came out of that. So we're in the 
first year of that followup, and we're working with agencies to 
make sure there is a process in place with these agencies.
    We've invested the time to assess whether the program works 
or not. We decided that the recommended course of action and a 
lot of our assessment is to change this, to combine it with 
that, to drop this, to more funding, less funding, to look for 
better performance measures. All right, that was 12 months ago. 
Where are we? What is the quality and the aggressiveness of the 
followup? Who is responsible for it, and so forth? And we're in 
the process now of trying to establish those processes with the 
agencies.
    We also have learned more about the quality of the 
assessment. We've gone back and analyzed past PART ratings and 
determined that there is some inconsistency with some of the 
ratings, and so we're trying to make OMB examiners and the 
people in the agencies better at more uniformly and 
consistently evaluating these programs. So we're trying to make 
sure the quality assessment is better, and we're trying to make 
sure the quality and the aggressiveness of the followup is 
there, because if there is no ``so-what,'' if there is no 
aggressive and high-quality followup by Congress and by us, 
this is a waste of time.
    Mr. Platts. Absolutely, and that's certainly what we don't 
want, that we spend even more money and more time and don't get 
any results from that oversight responsibility; and it's a 
problem that we're trying to prevent in the first place.
    What with the each stage coming, you know, the next round, 
the 20 percent over 5 years, are the agencies--and I may have 
asked this in one of our previous subcommittee hearings; I 
don't remember if I did, and I don't believe it was a clear 
answer, the ones that were in the last round, 5th year or 4th 
year--are they being told today, you know, you're 3 years out 
or 4 years out?
    Mr. Johnson. Why wait?
    Mr. Platts. Right, why wait. And so we don't have 50 
percent so that you can't really assess the results, so they do 
have, you know, more time to be ready for that assessment, so 
we shouldn't have 50.4 percent in that fifth round.
    Where is that process?
    Mr. Johnson. It's a very good point. I don't think we are 
formally suggesting that agencies do that. I have met with the 
leadership of governmental agencies, and I have heard 
individual agencies say, ``We're not waiting. We know that our 
program is in that fifth prong, and we're not waiting. We're 
going through sort of an informal PART assessment to see where 
we are, and when we finally do go through this formally, we'll 
be better prepared for that.'' But I think that's a good idea, 
and I think we need to be working more formally with agencies. 
Some of these, when we see 40 percent evaluating the programs, 
that's not a uniform 40 percent. One agency has evaluated 
programs that account for 80 percent of their spending and 
others for 60 percent.
    One thing we've given serious thought to is taking that 
program, that agency, and completing the PART assessment of all 
members in the program, so we have one or two or three agencies 
that are 100 percent PARTed. All right. How do you run an 
agency where you have appropriate performance information on 
everything they do? How does that agency function differently? 
What kind of conversations do they have, different 
conversations with themselves on a weekly or a monthly basis? 
What's their interaction with the Congress?
    Right now, it's a little bit in between, because we've got 
20 percent of the programs or 40 percent of the programs or 
whatever, and so there's no one consistent approach to that. So 
let's get them all across the finish line and see how they 
operate so they can report, and this is what we're heading 
toward.
    Mr. Platts. Comprehensive cultural change?
    Mr. Johnson. Right.
    Mr. Platts. So that agency is operating in a better fashion 
with more scrutiny on results?
    Mr. Johnson. Right.
    Mr. Platts. Mr. Walker is there a need for an enhanced GAO 
role in evaluating the process in the actual evaluations that 
are completed in a more formal fashion?
    Mr. Walker. I think it's important that OMB continue to do 
what it's doing, and as I said before, I think the agencies 
have the primary responsibility, frankly, to make sure they are 
delivering results with the resources and authorities that 
they're getting. Not only the Congress should demand it, but 
the taxpayers should demand it.
    I do think we have to realize there is a separation of 
policy issues, and while the OMB is doing it--and I commend 
them for it, and they should continue to do it--I think it's 
important that the legislative branch be able to use GAO to 
evaluate what they're doing; and also periodically to look at 
particular programs or departments or agencies, or to look at 
particular functional activities that cross agencies as a 
supplement, not a substitute for what the executive branch is 
doing.
    Mr. Platts. Mr. Chairman, I yield back.
    Chairman Tom Davis. Thank you very much.
    Let me just throw a final query to the panel. I think 
everybody agrees it's a great concept. I think the executive 
branch is probably doing a better job than the legislative 
branch right now.
    Are there any teeth legislatively that we could put in this 
that would help the legislative branch improve our job. Or is 
it just a question of leadership?
    Mr. Armey. If I may?
    Chairman Tom Davis. Sure, please, Mr. Armey.
    Mr. Armey. I think--you know, I walk around the country and 
something happens. First thing you hear is, there ought to be a 
law. That's the first thing the Congressman hears, too, so he 
gets busy writing a new law.
    I wish somebody would stand on Main Street and say, ``There 
ought to be better oversight;'' and Steve Horn is one of the 
few people who actually made a place in the sun for himself. He 
got recognized and appreciated for his oversight work. It's 
hard work and it's not well-recognized. You're not going to see 
the Washington Post down here covering oversight hearings.
    I spent the first couple of years as majority leader 
frustrated because even this committee could get all the press 
in the world if it was wallowing around here in a scandal; 
everybody was down here with their note pads and their cameras. 
Well, that wasn't really, quite frankly, very productive toward 
the better performance of our agencies of government in 
implementing the law for the future safety and security of our 
children. It was probably better theater and more entertaining, 
but it was a diversion even of this committee.
    Now, this committee with the current circumstances and the 
current leadership has an opportunity to demonstrate to other 
Members of Congress there are rewards and recognitions in 
effective oversight. The fact of the matter is, as they see 
that, they will be. I think virtually every authorizing 
committee has an oversight subcommittee. I believe for the most 
part they lie fallow because, again, we're not getting the kind 
of recognition that Congressmen want to have for their 
activities.
    I think, you know--again, I said before--I can do my 
children more good through effective oversight than I can 
through writing another law, but I'm not going to get any 
personal recognition for the oversight, so I go right to law. 
And it may be, Mr. Chairman----
    Chairman Tom Davis. Like I say, we campaign in poetry and 
we govern in prose.
    Mr. Armey. If I might, oversight, the business of oversight 
to me needs its rock star.
    Mr. Chairman, I think you can be that rock star. I think 
you should do your best Bono imitation and demonstrate to the 
Members of Congress that you can be successful. And I hope--I 
would hope that somebody in the media would understand the 
critical importance of this business, how hard the work is, and 
help set an example for others that's what good government's 
about, the hard rigor of oversight.
    The agencies, perhaps if you take an agency and pull it all 
the way through the gauntlet, it can come out on the other end 
and say, hey, I ran the gauntlet and I'm a better agency for 
it. It can be an encouragement to agencies. Maybe that is the 
approach that should be taken. Focus on one agency and say, 
we're going to give you the opportunity of a lifetime. You're 
going to be the first, best example of success to shine in 
front of the other agencies.
    Chairman Tom Davis. We need a volunteer. I saw them running 
for corners.
    Mr. Armey. May I say what may be my final words? Thank you 
for this, the work of this committee. Those of you who govern 
this committee, stay on this committee, assume positions of 
leadership for this committee and do the work seriously, I 
think, can be an example before your colleagues.
    Each and every committee of Congress can perform an 
important oversight process and all should be encouraged to do 
so. I can think of no quicker, more effective source of that 
encouragement than your committee's success, so I wish you all 
the success in the world.
    Chairman Tom Davis. Thank you very much.
    Anyone else? Mr. Walker.
    Mr. Walker. A few quick comments: First, to reinforce, 
we're on a burning platform, figuratively not literally. The 
status quo's unacceptable, unsustainable.
    Tough choices are going to have to be made. To make those 
tough choices, one of the things that's going to have to happen 
is, Congress is going to have to be more engaged through 
oversight, authorization and appropriations activities.
    Like anything, you need a few champions. You don't need 
many; you need a few. You will now--even if you have a couple 
on each side of the aisle, if it's important enough, that can 
get the job done. In fact, I was assistant secretary of labor 
for--during the Reagan administration and early Bush for the 
Employee Retirement Income Security Act. There were two 
Democrats and two Republicans; you know, one Republican, one 
Democrat in the House, one Republican, one Democrat in the 
Senate, who labored for several years to get that passed.
    It got done. It had a tremendous impact on tens of millions 
of Americans, our economy, etc.
    This committee and Senate Governmental Affairs are the ones 
to get it done. I think the fact of the matter is that this 
committee and Senate Governmental Affairs also have a strategic 
ally on this important nonpartisan issue, and that's GAO. We 
are a strategic asset to this committee, to the Congress and 
the country and we look forward to doing our part.
    Chairman Tom Davis. Thank you very much.
    Ms. McGinnis. I have a suggestion. Clearly, you can't 
legislate leadership and you can't legislate culture change, 
but it occurs to me that the potential champions--and some of 
them, right now, might be resistors in the leadership of the 
Appropriations Committee. And some of the major authorization 
and tax committees should come together, perhaps in a very 
bipartisan way, House and Senate--there are some key people in 
the executive branch--and really have this conversation about 
performance and results and accountability to the public for a 
return on the tax investment. Because, you know, the Council 
for Excellence in Government, among many other things, 
organizes the bipartisan House retreat; and it strikes me, 
bringing together a much smaller group around an issue as 
significant as this in that kind of an honest conversation 
could be very constructive to build some interest in ownership 
that might lead to both changes in practice, changes in rules 
and changes in legislation.
    Chairman Tom Davis. OK. Thank you.
    Ms. McGinnis. And we would be delighted to work with you on 
that----
    Chairman Tom Davis. OK.
    Ms. McGinnis [continuing]. If you're interested.
    Chairman Tom Davis. Thank you very much.
    Well, let me thank this panel. I think we had a great 
discussion today.
    I'd say we have some great ideas for legislation, but I 
think, Mr. Armey, you know, we have great opportunities for 
oversight, so I will emphasize that, take this back. Actually, 
we may have a couple pieces of legislation come out of this. 
This has been very, very helpful to us, and although we had a 
small panel, members who have fled the jurisdiction with the 
coming hurricane, I think it allowed for a sustained 
discussion, something we don't often get in these hearings.
    This will obviously be shared with other members, and Mr. 
Platts' subcommittee will hold further hearings on this; and 
basically he's employed to further any additional legislative 
changes and recommendations, so we'll see some of you there.
    Mr. Walker.
    Mr. Walker. Real quickly for the record, Mr. Chairman: As 
you know, this committee and, I believe, it's Senate 
Governmental Affairs, have asked us to do a comprehensive 
assessment of GPRA on the 10-year anniversary.
    We're going to be issuing a report next month----
    Chairman Tom Davis. Excellent.
    Mr. Walker [continuing]. On this and it will have a number 
of recommendations.
    We look forward to following up on that.
    Chairman Tom Davis. Excellent.
    Mr. Johnson. I'd encourage you to tone down some of that 
talk about Congress.
    Mr. Walker. Well, I'll do that.
    Chairman Tom Davis. Well, I saw Mr. Walker gave the 
executive branch a B or better. I didn't ask him to rate the 
legislative branch.
    I understand where his job comes from and where he's 
reporting from, but we get the message, and we appreciate very 
much everyone's comments today. I think they've added greatly 
to the discussion.
    And we'll adjourn the hearing. Thank you very much.
    [Whereupon, at 11:44 a.m., the committee was adjourned.]
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 90481.050
    
    [GRAPHIC] [TIFF OMITTED] 90481.051
    
                                   - 

</pre></body></html>
